               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             Officer Compensation for
                Calendar Year 2012

                       Audit Report




                                              February 4, 2014

Report Number FT-AR-14-005
                                                                    February 4, 2014

                                                         Officer Compensation for
                                                               Calendar Year 2012

                                                      Report Number FT-AR-14-005



BACKGROUND:                                 The Postal Service asserted that two
The Postal Accountability and                officers who received base salaries
Enhancement Act of 2006 (Postal Act of       above the pay cap of $199,700 were
2006) amended 39 U.S.C. and revised          approved as critical employees by the
the cap on total compensation payable        Board, but their names were not
to U.S. Postal Service employees.            submitted to the Office of Personnel
Postal Service employees generally           Management and Congress.
could not be paid more than $199,700
for calendar year (CY) 2012. Exceptions     One officer's annuity was not included
under the law allowed some employees’        in the compensation cap computation.
annual compensation to total up to           With annuity, this officer’s total
$230,700 with a Board of Governors           compensation exceeded the second
(Board) approved bonus or reward             cap of $230,700 and the officer was
program, or $276,840 for critical            not on the list of critical positions.
positions. Compensation includes
annual salary, merit lump sum              As a result, during CY 2012 the Postal
payments, bonuses, awards, and             Service paid $142,075 above the
annuity payments. Our objective was to     compensation caps.
determine whether the Postal Service
complied with the Postal Act of 2006,      According to the Postal Service's 2012
Postal Service policies and guidelines,    annual report, officers’ salaries were to
and IRS regulations for CY 2012 officer    remain frozen; however, we identified
compensation.                              seven officers who received salary
                                           increases while maintaining vice
WHAT THE OIG FOUND:                        president positions. Also, one officer's
Although the Postal Service complied       leave request was modified and
with IRS regulations for CY 2012, it did   processed without proper approval.
not always comply with annual officer
compensation caps as required by the       WHAT THE OIG RECOMMENDED:
Postal Act of 2006 or its own internal     Management agreed to follow new
policies and guidelines for leave          criteria that addressed the issues
approval. This occurred because            discussed in our report. Since these
management previously misinterpreted       criteria were developed in CY 2013,
the Postal Act of 2006. We identified      subsequent to the compensation period
three officers whose compensation          reviewed, we are not making any
exceeded the caps.                         recommendations.

                                           Link to review the entire report
February 4, 2014

MEMORANDUM FOR:            PATRICK R. DONAHOE
                           POSTMASTER GENERAL




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Officer Compensation for
                           Calendar Year 2012 (Report Number FT-AR-14-005)

This report presents the results of our audit of Officer Compensation for Calendar Year
2012 (Project Number 13BG016FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michelle Lindquist, deputy
director, Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Officer Compensation for Calendar Year 2012                                                                        FT-AR-14-005




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 3

Compensation Cap.......................................................................................................... 4

Salary Increases ............................................................................................................. 5

Leave Approval Process ................................................................................................. 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Management's Comments ........................................................................ 12
Officer Compensation for Calendar Year 2012                                                          FT-AR-14-005



Introduction

This report presents the results of our audit of calendar year (CY) 2012 compensation
paid to or deferred1 by officers2 of the U.S. Postal Service (Project Number
13BG016FT000). The objective of the audit was to determine whether the Postal
Service complied with the Postal Accountability and Enhancement Act of 2006 (Postal
Act of 2006), Postal Service policies and guidelines, and IRS regulations for CY 2012
compensation paid to officers. We will continue to provide annual reports as part of our
ongoing financial statement audit work. See Appendix A for additional information about
this audit.

The Postal Act of 2006 amended Title 39 of the U.S. Code and revised the cap imposed
on total compensation payable to Postal Service employees. Compensation includes
annual salary, merit lump sum payments,3 bonuses, awards, and annuity payments.
Table 1 explains the three compensation levels for CY 2012.4

                              Table 1. CY 2012 Compensation Levels

                                                                                                          Dollar
Level                                          Description                                                Limit
    I     No officer or employee shall be paid compensation at a rate in excess of                      $199,700
          the rate for Level I of the Executive Schedule under §5312 of Title 5
          [39 U.S.C. §1003(a)].
    II    The Postal Service may establish one or more programs to provide                              $230,700
          bonuses or other rewards to officers and employees of the Postal Service in
          senior executive or equivalent positions. Under any such program, the
          Postal Service may award a bonus or other reward in excess of the
          limitation set forth in the last sentence of §1003(a), if such program has
          been approved. Any such award or bonus may not cause the total
          compensation of such officer or employee to exceed the total annual
          compensation payable to the vice president under §104 of Title 3 as of the
          end of the calendar year in which the bonus or award is paid. If the Postal
          Service wishes to have the authority to award bonuses or other rewards in
          excess of the limitation set forth in the last sentence of §1003(a), the Postal
          Service shall make an appropriate request to the Board of Governors
          (Board), and the Board shall approve any such request if the Board
          certifies, for the annual appraisal period involved, that the performance
          appraisal system for affected officers and employees of the Postal Service
          (as designed and applied) makes meaningful distinctions based on relative
          performance [39 U.S.C. §3686(a) & (b)].


1
  Compensation credited but not disbursed in CY 2012.
2
  Defined in this report as Postal Career Executive Schedule (PCES) II employees.
3
  The performance-based lump sum payment is included as part of the Postal Service’s National Performance
Assessment Program (or its annual pay-for-performance incentive program).
4
  In CY 2012, five Postal Service employees were paid at PCES Level II, five were paid at PCES Level III, and one
was paid above PCES Level III.
                                                          1
         This report has not yet been reviewed for release under FOIA or the Privacy
         Act. Distribution should be limited to those within the Postal Service with a
         need to know.
Officer Compensation for Calendar Year 2012                                                             FT-AR-14-005



                                                                                                            Dollar
Level                                            Description                                                Limit
    III   Notwithstanding any other provision of law, the Board may allow up to                            $276,840
          12 officers or employees of the Postal Service in critical senior executive or
          equivalent positions to receive total compensation in an amount not to
          exceed 120 percent of the total annual compensation payable to the vice
          president under §104 of Title 3 as of the end of the calendar year in which
          such payment is received. For each exception made under this subsection,
          the Board shall provide written notification to the director of the Office of
          Personnel Management (OPM) and the Congress within 30 days after the
          payment is made setting forth the name of the officer or employee involved,
          the critical nature of his or her duties and responsibilities, and the basis for
          determining that such payment is warranted [39 U.S.C. §3686(c)].
Source: 39 U.S.C. §§1003(a) and 3686(a) (b) and (c).

Postal Service officers may appropriately receive additional benefits not subject to the
compensation cap, including increased annual leave exchange hours, free financial
counseling, parking, life insurance, health benefits, and other perquisites.5

In discussions subsequent to our CY 2011 officer compensation report,6 management
contacted the Department of Justice (DOJ), Office of Legal Counsel (OLC), for its
interpretation of compensation laws. As a result, management agreed to the
interpretation in Table 2.




5
  The Postal Service offers driver and personal security services through the U.S. Postal Inspection Service to the
postmaster general.
6
  Officer Compensation for Calendar Year 2011 (Report Number FT-AR-13-001, dated October 19, 2012).

                                                          2
Officer Compensation for Calendar Year 2012                                                         FT-AR-14-005



                             Table 2. Postal Service Bonus Authority
                                     CY 2012 Salary Ceilings




Sources: Developed by the OIG Office of General Counsel from information provided by the DOJ OLC, and agreed to
by Postal Service management.

Conclusion

Although the Postal Service complied with IRS regulations for CY 2012, it did not
always comply with annual officer compensation caps in the Postal Act of 2006. This
occurred because management previously misinterpreted the relevant statutory
authority in the Postal Act of 2006. Our finding is tied to this misinterpretation.

Of the 36 officers whose files we reviewed, we identified three whose compensation
exceeded or otherwise failed to comply with the compensation caps imposed by the
Postal Act of 2006. As shown in Table 3, we identified one officer whose compensation
exceeded or otherwise failed to comply with the compensation caps, as the Postal
Service did not consider the officer’s annuity7 to be part of the base salary for computing
the compensation cap. We also identified two officers who, the Postal Service asserts,




7
  Annuity benefits received by re-employed annuitant from the OPM. A re-employed annuitant is a person who is
receiving a Civil Service Retirement System or Federal Employee Retirement System retirement annuity and, at the
same time, earning a paycheck as a federal employee.

                                                        3
Officer Compensation for Calendar Year 2012                                                     FT-AR-14-005



were designated among the top 12 critical positions by the Board, but who were not
included on a list submitted to the OPM and Congress.8

                                    Table 3. Compensation Data

                                  Incentive           Total                                 Payment
    Officer   Base Salary         Payment          Compensation              Cap           Above Cap
      1            $230,000                  $0             $230,000         $199,700           $30,300
      2            $230,000                  $0             $230,000         $199,700           $30,300
                             9                10                                      11
      3           $249,740           $62,435                $312,175       $230,700             $81,475
    Total Payment Above Cap                                                                    $142,075
Sources: Employee Master File application and Eagan Accounts Payable System (EAPS).

As a result, during CY 2012, the Postal Service paid a total of $142,075 above the
compensation cap imposed by the Postal Act of 2006. Since management agreed to
new criteria and will follow them going forward, we will not make recommendations
related to compensation cap violations.

In addition, although management expressly decided to freeze officers’ salaries
according to its 2012 annual report, we identified seven officers12 who received nominal
salary increases during CYs 2011 and 2012. Management informed us that they
received salary increases for promotions or for assuming greater responsibilities;
however, all seven officers remained vice presidents. In our judgment, a mere shifting of
responsibilities does not equate to a promotion. We are reporting this for informational
purposes only, as management has the discretion to provide pay increases.

Furthermore, we identified only one instance where the Postal Service did not comply
with its own internal policies relating to the leave approval process. We identified one
officer whose previously approved annual leave request was made on Postal Service
(PS) Form 3971, Request for or Notification of Absence, improperly amended by the
requester to leave without pay (LWOP), and processed without supervisory approval.
Since we identified only one instance of non-compliance and the officer is separated
from the Postal Service, we are not making any recommendations. However, in the
future, we suggest management comply with internal policies and procedures regarding
its own leave requests to avoid unauthorized changes.




8
  The Board meeting minutes during which these actions occurred do not explicitly state that the officers were
designated as critical.
9
  Base salary of $249,740 includes base salary of $113,048 and an annuity payment of $136,692.
10
   Performance incentive award of 25 percent of base salary.
11
   Officer number three received a $62,435 bonus (25 percent of base salary); therefore, compensation Level
II of $230,700 applies, per 39 U.S.C. Sections 3686(a) and (b).
12
   Five officers received salary increases during CY 2011 and two received salary increases during CY 2012.

                                                      4
Officer Compensation for Calendar Year 2012                                         FT-AR-14-005




Compensation Cap

Of the 36 officers whose files we reviewed, we identified three whose compensation
exceeded or otherwise failed to comply with the compensation cap for CY 2012
imposed by the Postal Act of 2006.

Specifically:

      We identified two officers who, the Postal Service asserts, the Board approved as
       being among the 12 officers in senior critical positions, but did not include in the list
       of authorized exceptions reported to the OPM and Congress. This occurred because
       management did not think that officers with salaries under $230,700 needed to
       appear on this report. The Postal Service may not pay its officers or employees base
       (basic) salaries in excess of Level I limits (currently $199,700) unless the additional
       compensation is made in the form of a bonus or award or the position is designated
       as critical and is reported to the OPM and Congress.13 As a result, two officers’ base
       salaries exceeded their positions' applicable compensation caps by $30,300 each.

      One officer’s annuity was not included as part of the base salary for computing the
       compensation cap. The officer received total compensation of $312,175, which
       included a base salary of $113,048, an annuity payment of $136,692, and a
       performance-related incentive payment of $62,435. This exceeded all three
       compensation caps. This occurred because management did not understand that
       annuity payments to re-employed federal annuitants must be included in their
       compensation caps.14 Since the Postal Service excluded this officer from the list
       provided to the OPM and Congress identifying critical employees or positions, the
       officer was paid $81,475 above the Level II cap (currently $230,700).

In discussions subsequent to our report on CY 2011 officer compensation, the Postal
Service and the U.S. Postal Service Office of Inspector General (OIG) sought guidance
from the DOJ OLC, and reached a common understanding that the law should be
interpreted as outlined in Table 2. This interpretation is based on the Postal Act of 2006
and does not allow the Postal Service to pay its officers or employees base salaries that
exceed Executive Schedule Level I, with a few exceptions. Any payments that exceed
Executive Schedule Level I must be in the form of a bonus or award and are subject to
OPM and congressional notification, as applicable. In addition, the Postal Service must
include a re-employed federal annuitant’s annuity payments in the individual’s total
compensation calculation. Since the interpretation was developed in CY 2013 and will
be followed going forward, we will not make any recommendations with respect to CY
2012. We will continue to monitor implementation of officer compensation limits as part
of our ongoing officer compensation audit work.



13
     39 U.S.C. Sections 3686 (a), (b), and (c).
14
     See Table 2 for criteria – Level III.

                                                  5
Officer Compensation for Calendar Year 2012                                                            FT-AR-14-005




Salary Increases

According to the Postal Service's 2012 annual report,15 pay and bonuses for officers
and executives remained frozen; however, we identified seven of 36 officers who
received nominal salary increases during CYs 2011 and 2012 while they remained vice
presidents. In addition, we identified two officers who received salary increases for their
promotions from vice president to executive vice president. Management informed us
that all nine officers received salary increases for promotions or for assuming
significantly greater responsibilities due to restructuring. We agree that a move from
vice president to executive vice president would be considered a promotion; however,
while the other seven officers may have received additional or different responsibilities,
they remained vice presidents. In our opinion, assuming additional or different
responsibilities as a result of a restructuring and remaining at the same vice president
level should not be considered a promotion. Therefore, the OIG does not agree that the
officers were entitled to an increase, based on management’s disclosure to the public
that it was freezing salaries. Since management has the discretion to provide pay
raises, we are reporting this for informational purposes only.

Leave Approval Process

One officer's approved PS Form 3971 for 24 hours of annual leave was improperly
revised by the officer to 16 hours of LWOP and processed accordingly, without
supervisory approval. Postal Service policy16 requires employees to obtain approval of
PS Forms 3971 before taking leave. In addition, the policy17 states that LWOP is
granted at administrative discretion and not at an employee's demand, with a few
exceptions.18 However, per the officer's request to her executive assistant, the
previously approved PS Form 3971 was revised without authorization, according to the
officer's leave-approving authority, and processed. No cause for the change to LWOP
was identified on the form nor could anyone recall why the form was changed. We did
not identify any advantage the officer obtained by substituting LWOP for annual leave.

Since we identified only one instance of non-compliance and the officer is separated
from the Postal Service, we are not making a recommendation. In the future, though, we
suggest the Postal Service revisit its internal policies and procedures regarding officer
leave requests to ensure that management follows appropriate controls to avoid
unauthorized changes.

Management’s Comments

Management noted that all the compensation cap issues discussed in this report are the
result of a disagreement between management and the OIG regarding the proper
15
   FY 2012 Annual Report to Congress, page 56.
16
   Employee and Labor Relations Manual 35, Section 511.23, Postal Employees, dated April 2013.
17
   Handbook F-21, Time & Attendance, Section 343, Authorization and Supporting PS Forms, dated August 2009.
18
   Disabled veterans for medical reasons, reservists, and members of the National Guard to perform military training
duties; and employees who sustain traumatic job-related injuries while on duty.

                                                          6
Officer Compensation for Calendar Year 2012                                     FT-AR-14-005



interpretation of the law. Both management and the OIG agreed to consult the
DOJ OLC to resolve the dispute. The DOJ OLC provided its opinion after the end of
CY 2012, so the Postal Service could not follow its guidance during CY 2012. The OIG
and management have agreed to follow the DOJ OLC’s opinion going forward.

Management disagreed that two officers’ salaries exceeded the compensation cap by
$30,300 each. Management maintained that the Board identified these two officers as
occupying critical senior executive positions and that they were eligible to receive
compensation up to 120 percent of the total annual compensation paid to the vice
president of the U.S. Management acknowledged these two officers were not on the list
submitted to the OPM and Congress due to an incorrect interpretation of the law.

Management stated this report incorrectly included seven officers who received
inappropriate salary increases. Management noted that five of the seven officers
received salary increases during CY 2011 and should not be included in this report as
they are outside the scope of the audit. Regarding the remaining two officers,
management considered the salary increases warranted as both officers accepted
significantly increased responsibilities during CY 2012.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

Although this report does not contain any recommendations, the OIG considers
management’s comments responsive. The OIG agrees with management's observation
that the compensation cap issues stem from a disagreement on the proper
interpretation of the law governing Postal Service executive pay. We also agree that the
DOJ OLC’s opinion, as outlined in Table 2 of this report, should preclude future
compensation cap issues.

We maintain that the two officers exceeded the compensation cap by $30,300 each.
Management acknowledged that the officers were not on the list of critical employees
submitted to the OPM and Congress. The Postal Service asserted that the Board
designated both officers to be among two of the agency’s top 12 critical positions.
However, the OIG noted that the Board’s meeting minutes did not explicitly state that
the officers were designated as critical.

The OIG considers the salary increases for seven officers to be in direct contradiction to
the Postal Service's public statement that officer pay remained frozen in CY 2012.
Further, although the scope of our audit was CY 2012 compensation, when we
evaluated the salaries for CY 2012 and noted the contradictory salary increases, we
expanded our scope to evaluate pay increases to officers in CY 2011. Given the fact
that the Postal Service publically stated that it would freeze officer pay (in both CY 2011
and 2012), we believe the officers were not entitled to pay increases while remaining at
the same vice president level despite any increased responsibilities.



                                              7
Officer Compensation for Calendar Year 2012                                        FT-AR-14-005




                             Appendix A: Additional Information

Background

The Postal Act of 2006 amended Title 39 of the U.S. Code and imposed guidelines on
total compensation for the Postal Service. Compensation includes annual salary, merit
lump sum payments, bonuses, awards, and annuity payments. Under this provision, the
total compensation payable to any employee is established at three levels:

   The first cap provides that no officer or employee may be paid compensation at a
    rate in excess of the rate for Level I of the Executive Schedule. This limit was set at
    $199,700 for CY 2012.

   With Board approval, however, the Postal Service may develop a program to award
    a bonus or other reward in excess of the above compensation cap, as long as it
    does not cause the total annual compensation paid to the officer to exceed the total
    annual compensation payable to the vice president of the U.S. at the end of the
    calendar year in which the bonus or award is paid. In approving any such program,
    the Board must determine that the bonus or award is based on a performance
    appraisal system that makes meaningful distinctions based on relative performance.
    This total compensation cap was $230,700 for CY 2012. The Postal Service
    annually reports all officers whose total compensation exceeds Level I of the
    Executive Schedule in the Comprehensive Statement on Postal Operations.

   In addition, the Board may allow up to 12 officers or employees of the Postal
    Service, in critical senior executive or equivalent positions, to be paid total annual
    compensation of up to 120 percent of the total annual compensation payable to the
    vice president of the U.S. as of the end of the calendar year in which such payment
    is received. This compensation cap was $276,840 for CY 2012.

The policy for officers’ recruitment, relocation, retention, and separation benefits was
last updated and approved by the Board on September 11, 2006.

The Postal Act of 2006 requires written notification to the OPM and Congress of each
senior executive or equivalent position designated as critical. On January 28, 2013, the
Board reported the following positions as critical for CY 2012:

   Postmaster general and chief executive officer.
   Deputy postmaster general.
   Chief financial officer and executive vice president.
   Chief operating officer and executive vice president.
   Chief Human Resources officer and executive vice president.

In addition, the Board identified the position of president, Digital Solutions, as critical but
did not notify the OPM and Congress.


                                               8
Officer Compensation for Calendar Year 2012                                                                 FT-AR-14-005



Postal Service officers may receive additional benefits that are appropriately not subject
to the compensation cap, including increased annual leave exchange hours, free
financial counseling, parking, life insurance, health benefits, and other perquisites. Also,
in certain limited cases, officers have contractual incentive benefits that, when not tied
to any performance goals or measures, are subject to the compensation cap in the year
they are earned.

In certain limited cases, the Postal Service entered into agreements to provide
executive retention bonuses that may take the form of deferred compensation. As
shown in Table 4, three active and two inactive officers have outstanding deferred
compensation balances.

            Table 4. Cumulative Deferred Compensation as of December 31, 2012

                                                                    Cumulative
           Officer                        Name                    Deferred Balance                    Status
          1                    Anthony J. Vegliante                               $124,824            Active19
          2                    Joseph Corbett                                      102,021             Active
          3                    Patrick R. Donahoe                                    7,750             Active
          4                    John E. Potter                                      714,991            Inactive
          5                    Ross Philo                                          675,148            Inactive
 Total Deferred
 Balance                                                                       $1,624,734
Source: EAPS.

Objective, Scope, and Methodology

The objective of our audit was to determine whether the Postal Service complied with
the compensation cap, Postal Service policies and guidelines, and IRS regulations for
CY 2012 compensation for officers. To achieve our objective, we:

      Interviewed Postal Service personnel.
      Reviewed Postal Service policies and guidelines.
      Reviewed compensation information from payroll systems.
      Reviewed bonus, award, and deferred compensation information from EAPS.
      Reviewed IRS guidelines for reporting wages and taxes.
      Reviewed the employment agreements of three officers.

We conducted this portion of the audit from April 2013 through February 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for

19
     Mr. Vegliante retired March 1, 2013, but is listed as active because the scope of this report is CY 2012.

                                                              9
Officer Compensation for Calendar Year 2012                                   FT-AR-14-005



our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on December 16, 2013, and included
its comments where appropriate.

We relied on computer-generated data from payroll systems and EAPS for testing
compensation, awards, bonuses, and annual leave exchanges. We assessed the
reliability of this data by reviewing existing information about the data and the system
that produced them and using advanced data analysis techniques to test data gathered
from these systems. We also performed specific internal control and transaction tests,
including tracing selected information to supporting source records. As such, we
determined this data to be sufficiently reliable for the purpose of this report.

Prior Audit Coverage

                                                      Final
                                                     Report
        Report Title          Report Number           Date          Monetary Impact
 Officer Compensation          FT-AR-13-001        10/19/2012           $110,011
 for Calendar Year 2011
 Report Results:
 We identified three officers whose compensation exceeded or otherwise failed to
 comply with the compensation caps imposed by the Postal Act of 2006. As a result,
 during CY 2011, the Postal Service paid $110,011 above the caps. We
 recommended management coordinate with the Board to ensure the Postal Service
 reports to the OPM and Congress a complete list of critical senior executive or
 equivalent positions receiving total compensation in an amount not to exceed
 120 percent of the total annual compensation payable to the vice president of the
 U.S. We also recommended management request an interpretation from the
 Government Accountability Office (GAO) on whether annuity payments are
 considered in an employee’s total compensation and subject to the Postal Act of
 2006 compensation caps. While management did not agree to the monetary impact,
 it was responsive to both recommendations and acknowledged the fundamental
 disagreement with the interpretation of the law. As such, it agreed to contact the
 DOJ, Office of Legal Counsel, rather than the GAO to resolve all the issues
 identified. These divergent interpretations led us to agree that an advisory opinion
 from the Office of Legal Counsel would better resolve all of the issues and other
 matters than our original recommendations would.




                                              10
Officer Compensation for Calendar Year 2012                                FT-AR-14-005




                                                     Final
                                                    Report
        Report Title         Report Number            Date          Monetary Impact
 Officer Compensation         FT-AR-11-011         9/23/2011            $59,174
 for Calendar Year 2010
 Report Results:
 The Postal Service did not always comply with the cap and IRS regulations. An
 officer exceeded the cap because he received a retention bonus that was not tied to
 performance. The Postal Service also did not report Social Security wages or
 withhold and pay taxes on deferred compensation for one officer and did not timely
 report Medicare wages or timely withhold and pay taxes on deferred compensation
 for one prior and four current officers. We recommended management develop and
 implement policies and procedures to ensure adherence to the cap, report and pay
 the correct amount of Social Security and Medicare wages and taxes owed, establish
 accounts receivables for officers’ portions of Social Security and Medicare taxes on
 deferred compensation, and modify the Postal Service’s payroll system to calculate
 Social Security and Medicare taxes on deferred income. Management disagreed that
 the Postal Service exceeded the cap but agreed to link enhanced compensation to
 performance in current and future agreements. It also agreed to report and submit
 corrected wages and taxes, establish accounts receivables for the employees’
 portion of these taxes, and modify processes or systems to calculate appropriate
 taxes.




                                              11
Officer Compensation for Calendar Year 2012                    FT-AR-14-005




                           Appendix B: Management's Comments




                                              12
Officer Compensation for Calendar Year 2012        FT-AR-14-005




                                              13
